<html>
<title> - [H.A.S.C. No. 113-6] THE QUADRENNIAL DEFENSE REVIEW: PROCESS, POLICY, AND PERSPECTIVES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     

 
                          [H.A.S.C. No. 113-6] 
   THE QUADRENNIAL DEFENSE REVIEW: PROCESS, POLICY, AND PERSPECTIVES

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2013

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
79-948                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     MARTHA ROBY, Alabama, Chairman

K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
MO BROOKS, Alabama                   ROBERT E. ANDREWS, New Jersey
WALTER B. JONES, North Carolina      JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
JIM BRIDENSTINE, Oklahoma
             Christopher Bright, Professional Staff Member
                          Paul Lewis, Counsel
                     Arthur Milikh, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, February 26, 2013, The Quadrennial Defense Review: 
  Process, Policy, and Perspectives..............................     1

Appendix:

Tuesday, February 26, 2013.......................................    23
                              ----------                              

                       TUESDAY, FEBRUARY 26, 2013
   THE QUADRENNIAL DEFENSE REVIEW: PROCESS, POLICY, AND PERSPECTIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Roby, Hon. Martha, a Representative from Alabama, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Brimley, Shawn, Vice President and Director of Studies, Center 
  for a New American Security....................................     4
Dueck, Dr. Colin, Professor, George Mason University.............     6
Thomas, Jim, Vice President and Director of Studies, Center for 
  Strategic and Budgetary Assessments............................     8

                                APPENDIX

Prepared Statements:

    Brimley, Shawn...............................................    31
    Dueck, Dr. Colin.............................................    43
    Roby, Hon. Martha............................................    27
    Thomas, Jim..................................................    51
    Tsongas, Hon. Niki...........................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................    67
   THE QUADRENNIAL DEFENSE REVIEW: PROCESS, POLICY, AND PERSPECTIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                        Washington, DC, Tuesday, February 26, 2013.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Martha Roby 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTHA ROBY, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mrs. Roby. Welcome. And I am delighted to gavel to order 
the first hearing for the 113th Congress of the Oversight and 
Investigations Subcommittee of the House Armed Services 
Committee. And I am pleased to have as ranking member my 
colleague, Ms. Tsongas from Massachusetts. She and I have 
worked together in the past on other important matters, and I 
am really looking forward to her guidance and collaboration in 
her new leadership role in this subcommittee. So it is a 
pleasure to be working with you.
    And as members know, this subcommittee plays an important 
role, a very special role with the Armed Services Committee. 
And Ms. Tsongas and I have received comments from many of our 
members, and we have met to discuss the subcommittee's 
prospective activities. Ms. Tsongas and I also have both met 
with the bipartisan subcommittee staff to review all of our 
shared goals. And as you know, pursuant to established 
procedures, the chairman of the full committee works with the 
full committee ranking member to determine issues and subject 
matter appropriate for consideration and investigation by the 
subcommittee. The chairman, in coordination with the ranking 
member, also provides approval authority for investigations.
    So soon we will receive our guidance for the coming months. 
And I intend to work with Ms. Tsongas and other members and 
staff to establish a plan to fulfill not only Chairman McKeon's 
directive but also address other pressing matters requiring 
this subcommittee's attention. And I look forward to working 
with all members and staff to exercise our responsibility in a 
close and collaborative fashion.
    Let me now turn to the important topic of today's hearing. 
The Quadrennial Defense Review [QDR], which the Pentagon 
undertakes every 4 years, is an extraordinary effort. It is a 
very important mechanism for our defense leaders to consider 
our Nation's long-term military strategy. It is a way to 
attempt to match our defenses to the likely threats of the 
future.
    Since the dissolution of the Soviet Union, a clear 
articulation of the U.S. defense strategy has become more 
challenging, which I know all of you, our witnesses, certainly 
understand. And the threats to the United States have become 
more varied and unpredictable. And clearly describing our 
national defense posture in an unstable world is a difficult 
task of the QDR.
    The QDR process is just now beginning. And over the next 
year, the Department of Defense [DOD] will carefully consider 
how to approach the world and determine what resources and 
force structure are consequently needed. The Department has 
committed to come before us in the coming months to learn more 
about how that effort is proceeding. Today, we will hear from 
three distinguished witnesses who are knowledgeable about the 
past QDRs and defense strategy in general. And they will 
testify about how the QDR process might be shaped and about 
broader strategic issues they believe the coming QDR should 
consider.
    I hope this panel can help clarify the principles on which 
a National Defense Strategy should be based and how those 
involved in the current effort might approach their task.
    In 2 months, we will mark the 33rd anniversary of the 
historic testimony before this subcommittee; in May of 1980, 
the chief of staff of the Army, General Edward ``Shy'' Meyer 
coined the phrase ``hollow Army'' in describing the conditions 
of Army units deployed across the globe to members of this 
subcommittee. The world has changed tremendously in the 
intervening years, but it remains dangerous. This 2014 QDR is 
meant to guide our planning as we anticipate the threats to our 
Nation and the forces that we must maintain in response to 
those threats. We cannot return to the days of a hollow Army.
    I thank the witnesses for their attendance today, and I 
look forward to hearing your testimony.
    I now turn to my distinguished ranking member for any 
remarks that Ms. Tsongas may wish to make.
    [The prepared statement of Mrs. Roby can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Tsongas. Well, thank you, Chairman Roby. And I, like 
you, look forward to working with you on this most important of 
committees.
    And good afternoon to all of you, Mr. Brimley, Mr. Thomas, 
and Mr. Dueck. Great.
    I want to thank you for appearing before our subcommittee 
today, and I look forward to your testimony.
    As Martha, Chairwoman Roby, said, this is the first hearing 
of the Oversight and Investigations Subcommittee for the 113th 
Congress. And I want to congratulate Representative Roby on her 
selection as chairman. I am glad that we have already been able 
to meet personally. And I know the staff has been meeting 
regularly as well. And I look forward to working with you and 
all of your colleagues on the subcommittee.
    I would also like to take this opportunity to welcome my 
Democratic colleagues, Representative Rob Andrews, 
Representative Tammy Duckworth, and Representative Speier, who 
will also be serving with us.
    I know we are going to meet soon to discuss the issues and 
agenda for this subcommittee. This subcommittee has the ability 
to dive deeply into some of the long-term issues facing the 
Department of Defense, its service men, service women, and 
their families. And I look forward to doing so in the 
bipartisan spirit of the Armed Services Committee. We have much 
to do.
    Turning to the QDR, I think it is always important to have 
a regular, thoughtful, and reflective review of both the long-
term and short-term issues confronting the Department of 
Defense. Having this regular review of the review, so to speak, 
is also critical. As with all that we do, we can always do it 
better. If we did it right the first time, we would be out of a 
job. This is even more so with the unsettled environment we are 
dealing with fiscally, and with the new and evolving threats to 
our national security.
    We are well past the Cold War and a decade past 9/11. We 
all have very difficult decisions to make regarding the best 
way to protect our Nation in the future. And I look forward to 
hearing our panelists' views. As of now, we have the QDR, an 
independent review of the QDR, a GAO review of the sufficiency 
of the QDR, a military strategy assessment by the Joint Chiefs, 
as well as a recent National Security Strategy by the White 
House and the joint DOD-Joint Staff Defense Strategic Review. 
We need to make sure all of these reviews are consistent and 
don't contradict each other.
    I want to make sure we get this right. And I am pleased we 
have such an experienced panel here today.
    With sequestration set to take effect just 3 days from now, 
I believe that this hearing is also quite timely. Our defense 
strategy, after all, does not exist in an intellectual void. It 
must reflect the resources that we extend to our armed 
services. I am curious to hear all of your thoughts on how we 
can evolve our strategy to meet 21st century threats in a 
period of fiscal austerity. I look forward to our discussion 
today with our distinguished panel. I hope you can help us with 
these difficult decisions we have ahead. Thank you.
    [The prepared statement of Ms. Tsongas can be found in the 
Appendix on page 29.]
    Mrs. Roby. Thank you, Ms. Tsongas.
    I will introduce our witnesses and review how we will 
proceed. All of the witnesses have provided written statements 
to the subcommittee. These were circulated to members in 
advance of today's hearing, along with full witness 
biographies.
    The statements will be entered into the hearing record as 
received. Therefore, I invite each of you to summarize your 
written statements within 5 minutes.
    Then we will have rounds of questions, with each member 
allotted 5 minutes.
    Our witnesses today are Mr. Shawn Brimley, who is Vice 
President and Director of Studies at the Center for New 
American Security. From February 2009 to October 2010, Mr. 
Brimley served in the Obama administration, including as 
Special Advisor to the Under Secretary of Defense for Policy, 
where he focused on the 2010 Quadrennial Defense Review.
    Mr. Colin Dueck is an Associate Professor in the department 
of health--excuse me, the Department of Public and 
International Affairs at George Mason University. He has 
published two books on American foreign and national security 
policies. He studied politics at Princeton University and 
international relations at Oxford under a Rhodes Scholarship.
    Mr. Jim Thomas is Vice President and Director of Studies at 
the Center for Strategic and Budgetary Assessments. Among 
previous positions, Mr. Thomas served for 13 years in a variety 
of policy, planning, and resource analysis posts in the 
Department of Defense, including spearheading the 2005-2006 
Quadrennial Defense Review.
    So, Mr. Brimley, I will start with you.

  STATEMENT OF SHAWN BRIMLEY, VICE PRESIDENT AND DIRECTOR OF 
          STUDIES, CENTER FOR A NEW AMERICAN SECURITY

    Mr. Brimley. Thank you, Chairman Roby, Ranking Member 
Tsongas, and members of the subcommittee.
    I am honored to testify on the 2014 Quadrennial Defense 
Review. I had the privilege of serving as the lead drafter for 
the 2010 Quadrennial Defense Review, but I wanted to be clear 
up front that I was not a senior decisionmaker, just one of 
many, many action officers working in that year-long process.
    I would like to quickly highlight a few items from my 
written statement. The principal challenge with QDRs as I see 
them is that they generally have attempted to satisfy multiple 
audiences for multiple purposes. QDRs are often judged by their 
ability to do five things: One, be a reasonable response to 
specific congressional legislation; two, an enterprise-wide 
strategy document for the Department; three, an important near-
term lever for the current budget cycle; four, a vehicle for 
the Secretary of Defense to advance particularly important 
initiatives; and five, a critical public relations and 
strategic communications document.
    I believe the 2014 QDR should deprioritize the perceived 
need to be a big public relations document and strategic 
communications approach and focus on providing Congress the 20-
year vision for the Department of Defense and then, coupled 
with that, a detailed examination of how that vision can best 
be applied given constrained resources. The essence of good 
strategy, after all, is aligning ends, ways and means.
    I have some thoughts on some recommended areas of focus for 
the 2014 QDR. And a core challenge for any defense review is 
avoiding the powerful gravitational pull toward the perceived 
need to cover everything. The QDR cannot afford at this time to 
be a mile wide and an inch deep, and it not need not be. This 
will be a second term QDR that has a highly detailed 
predecessor and, more importantly, a recently concluded 
strategic review closely overseen by the Commander in Chief.
    The 2014 QDR should therefore use the 2012 Defense 
Strategic Guidance as the baseline strategy, and focus on how 
best to implement that strategy over 20 years at various 
plausible levels of resources and risk. I believe the 2014 QDR 
could best achieve this by focusing in part on a few strategic 
issues. First, we need to preserve investment in game-changing 
technologies. One of the biggest challenges in this environment 
will be to ensure that investments in generation-after-next 
technologies continue. And Congress should really focus on this 
area. A good example of this is the ongoing attempt to develop 
a carrier-based long-range unmanned combat aerial vehicle, or 
UCAV, that can provide real capability in an anti-access 
environment.
    And we should think about how to preserve and protect these 
investments over--even in the face of continued budget 
pressure. And we should remember we have done this before in 
very constrained budget environments. In the so-called interwar 
years of the 1920s and 1930s, America and other nations 
developed and fielded tanks, long-range bombers, radar, 
submarines and aircraft carriers. And if these kinds of 
investments could be preserved in that kind of economic 
environment--remember it was the Great Depression--surely we 
can find a way to prioritize game-changing technology 
investments today.
    Second, I think the QDR should focus on reversing the 
declining value of the defense dollar. I think the 2014 QDR 
must deal forthrightly with the ballooning cost of military 
personnel accounts. The 2014 QDR cannot be confined to defense 
strategy and force structure alone. To be truly meaningful, it 
must tackle head-on the challenge of identifying specific ways 
to put personnel, health care, benefits, and retirement 
spending on a more sustainable trajectory for the Department. 
And this will require elements of DOD that are not historically 
involved in the year-long minutiae of the QDR to be 
structurally integrated into that process from the very 
beginning.
    On the important role of Congress and you all play in the 
QDR, I have a couple recommendations. First, really try to 
leverage the QDR independent panel. I think you should 
carefully consider all appointments to the panel, biasing 
toward former policymakers with Pentagon experience, and also 
those with a bipartisan pedigree. Also important will be a key 
supporting staff of people who have had previous QDR 
experience, also hopefully with a bipartisan ethos. I think the 
Department should provide the QDR independent panel with all 
the materials necessary--all the materials they need to 
succeed; for instance, the QDR terms of reference, all the 
scenarios that involve force size and shaping that the 
Department will use to assess force structure over 20 years. 
And I think they should also consider providing the QDR 
independent panel with a dedicated space in the Pentagon and 
some reasonable level of administrative support to make sure 
they get the briefings that they need.
    Second, I think you should consider requiring the QDR to 
have some classified components of the review. One of the big 
problems with these documents is they do a lot of work in the 
classified domain, and they then translate that into an 
unclassified report. And I think oftentimes a lot of the 
important details get lost. Sometimes they use classified 
annexes, but I think it would be interesting to consider 
mandating the Department to classify certain sections of the 
QDR into the actual report itself and not just a series of 
annexes.
    And finally, I think the QDR should really try to be 
resource informed. Now, I know the legislation specifies 
specifically that it is a 20-year time frame unconstrained. But 
I think the problem potentially is that the QDR will go and 
skew toward fantasy rather than reality. But it can't simply be 
a near-term budget drill. A reasonable approach would be for 
Congress to make sure the 2014 QDR outlines the size and shape 
of the force structure required over 20 years and then also a 
series of alternative force structures, given the plausible and 
increasingly constrained budget environment.
    I think, with that, my time is up. Thank you.
    [The prepared statement of Mr. Brimley can be found in the 
Appendix on page 31.]
    Mrs. Roby. Thank you.
    Dr. Dueck.

     STATEMENT OF DR. COLIN DUECK, PROFESSOR, GEORGE MASON 
                           UNIVERSITY

    Dr. Dueck. Thank you. I would like to thank the members of 
the subcommittee for inviting me to speak with you. The 
overpowering consideration with defense strategy in some ways 
has been--can you hear me? The overpowering consideration for 
some time now has been budget cuts to defense. And 
unfortunately, this trend looks likely to continue. The 
temptation has been to let budget cuts drive strategic thinking 
rather than the other way around.
    The QDR is supposed to help outline national defense 
strategy. A strategy begins by identifying certain vital 
national interests. It then identifies threats to those 
interests arising from specific real-world adversaries. 
Finally, it recommends the development of specific policy 
instruments, including military capabilities, to meet those 
threats. It is sometimes said that we live in an age of 
austerity, so inevitably budgetary constraints drive the 
strategy. But resources are always limited, and strategy is 
always about developing a coherent approach toward specific 
threats under conditions of limited resources.
    So if we simply let declining budgets dictate how we 
identify threats to our national interests, then we are not 
really engaging in strategy at all. Strategy is about facing 
trade-offs. It is about matching up commitments and 
capabilities so the two are in some kind of reasonable balance. 
And the truth is that right now there is a wide and growing 
gap, or imbalance between America's declared international 
security objectives on the one hand and its military 
capabilities on the other.
    Just a couple of examples: The United States has adopted a 
policy of pivoting or rebalancing toward the Asia-Pacific. At 
the same time, however, we have continued to cut back the 
number of ships in the Navy. The two opposing directions don't 
really add up. If one of the purposes of the pivot is to 
reassure our Asian allies and remind China that the United 
States is in East Asia to stay, then how can we bolster that 
impression while at the same time cutting back on our maritime 
capabilities?
    The overall trend, which is growing worse, is that we have 
broad international commitments that are under-resourced 
militarily. Under such circumstances, basically only a few 
options exist. Either the country can boost its military 
capabilities to match existing commitments or it can scale back 
dramatically on existing commitments to match reduced 
capabilities. There is, of course, a third option, which is to 
claim that we will do more with less while denying that any 
real trade-offs exist. I would call this strategic denial. But 
this is not a true option. We can do more with more. We can do 
less with less. But when it comes to national defense, we can't 
actually do more with less.
    Assuming we now add on additional defense cuts of some $500 
billion over the next decade, then it has to be emphasized that 
even the downscaled national defense strategy implied in the 
2012 Strategic Guidance will no longer be coherent or 
sustainable. Perhaps the only good thing about this dire 
prospect is that it might force a genuine debate and assessment 
of some of the basic assumptions surrounding U.S. defense 
strategy. The relative emphasis today on long-range strike 
capacity, Special Operations, drone strikes, cyber war, area 
denial, and light-footed approaches rather than on heavy ground 
forces, stability operations, counterinsurgency or major 
regional war contingencies, is a move in the direction of what 
some call offshore balancing. And such a strategy has a certain 
appeal. But it carries risks or downsides as well.
    For many years, America's overarching forward presence 
abroad, including its related bases, its alliance system, and 
clear U.S. military superiority, have played a crucial role in 
deterring authoritarian powers, reassuring democratic allies, 
and upholding a particular international order that, for all 
its discontents, is remarkably prosperous and free by 
historical standards. If this strategic presence becomes 
detached or uncertain, there is no reason to expect that the 
benefits of that order for the United States will continue. And 
if we give up on that presence, we can't assume it will be easy 
or cheap to buy back. It never has been before.
    So if you ask me to make policy recommendations related to 
the coming QDR without regard to the immediate political 
climate, the first thing I would say is we do have to stop 
cutting national defense. Because if we don't, we will soon be 
left with no honest strategic options other than some form of 
offshore balancing. And as I have indicated, there are multiple 
reasons to believe that such a choice could have negative 
international consequences on a scale we can barely foresee 
today.
    But the second thing I would say is let's at least not 
engage in strategic denial. Let's not pretend we can maintain 
existing commitments while continually cutting military 
capabilities. Let's have the debate. And this is where I 
believe you can play a vital role in relation to the coming 
QDR. You can help ensure that it reflects the original and 
stated intention of Congress to produce a long-term reflection 
on international security trends and a serious strategy from 
start to finish, rather than denying or glossing over the 
growing gap between our capabilities and our commitments.
    Thank you.
    [The prepared statement of Dr. Dueck can be found in the 
Appendix on page 43.]
    Mrs. Roby. Thank you very much.
    Mr. Thomas.

    STATEMENT OF JIM THOMAS, VICE PRESIDENT AND DIRECTOR OF 
    STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Thomas. Chairman Roby, Ranking Member Tsongas, and 
members of the subcommittee, thank you for your invitation to 
testify today on the QDR. As you know, one of the QDR's major 
tasks is to develop a defense strategy which is supposed to be 
the foundation for determining the Department's priorities, 
where it should invest and what activities it should undertake.
    It is difficult, however, to imagine a process less suited 
to developing good strategy than a QDR, a highly bureaucratic 
process involving thousands of people that results in an 
unclassified report that is read by our foes and our friends 
alike. In trying to capture everything the Department does and 
address every challenge it faces, previous QDRs have often 
delivered simplistic, lowest-common-denominator results. 
Challenges as diverse as transnational terrorism, long-term 
strategic competitions with other great powers and weapons of 
mass destruction each demands their own strategy, rather than a 
single unclassified strategy intended to address them all.
    Such challenges do, however, share one common trait. They 
will require U.S. forces in the future to operate in far less 
permissive environments than in the recent past. Increasingly, 
terrorists will be pursued outside of designated war zones in 
places like Africa, with more restrictive rules of engagement, 
more surveillance requirements, but less logistical support. 
Frequently, they will require working indirectly, through 
foreign forces, to pursue common objectives.
    Unlike Afghanistan, we should also expect that future 
adversaries will contest the air domain more vigorously with 
sophisticated air defenses and communications jamming. Future 
adversaries, moreover, could hold regional ports and airfields, 
the key choke points through which many of our forces arrive in 
theaters and from which they operate, at risk with precision-
guided missiles and weapons of mass destruction. They could 
threaten large surface naval combatants that operate close to 
their shores with missiles and mines specifically designed to 
target them. And they are more likely to threaten our global 
space, logistics, and information systems, as well as critical 
infrastructure at home, with anti-satellite weapons and cyber 
attacks.
    Given such nonpermissive environments, the next QDR should 
emphasize highly distributed, autonomous, and low-signature 
forces capable of operating independently far forward in denied 
areas. This isn't a recipe for offshore balancing, but this is 
a recipe for how we maintain viable power projection and how we 
stay forward as a nation. These forces and capabilities include 
Special Operations Forces for both surgical strike and working 
by, with, and through foreign partners; submarines with greater 
strike capacity, and unmanned underwater vehicles with greater 
endurance; land- and sea-based long-range, air-refuelable, 
unmanned stealth aircraft for surveillance, strike, and 
electronic attack; deeper inventories of stand-off munitions 
that can overcome modern air defenses and electronic 
countermeasures, as well as more powerful air-delivered 
conventional weapons for holding deep underground facilities at 
risk; more survivable and/or resilient space-based systems; and 
finally, nonkinetic cyber, electronic warfare, and directed 
energy capabilities to achieve both lethal and nonlethal 
effects.
    Combinations of such access and sensitive forces are likely 
to be the spearhead of future campaigns against terrorists, WMD 
[weapons of mass destruction] powers, and adversaries 
possessing robust anti-access networks. Moreover, these 
conventional and Special Operations crown jewel capabilities, 
coupled with a robust nuclear deterrent, should become more 
central in U.S. military planning, especially in an era of 
declining resources. Beyond external challenges, strategy 
development also has to take explicitly into account available 
resources. None of us want a strategy that is simply budget 
driven, but neither can we responsibly craft a strategy that is 
unconstrained by our resources.
    One of the tricky risk balances that the next QDR needs to 
get right is the balance between America's sustained economic 
health and maintaining a strong national defense. Failing to 
take measures now to reduce our national debt as a percentage 
of GDP will only compound our fiscal problems that our children 
will face and will leave only fewer resources for our future 
defense. While DOD leaders should rightly fight for every penny 
they can get to maintain a strong defense, there also needs to 
be a recognition that putting the United States on a path back 
to strong economic growth and fiscal rectitude is essential to 
sustaining the country's long-term military predominance.
    Thank you, Madam Chairman. That concludes my opening 
statement.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 51.]
    Mrs. Roby. Again, I appreciate you all being here today.
    And we will now start our questions. Each member will have 
5 minutes, and we will see how far we get.
    My questions are for any of you, so please feel free to 
jump in. But I want to start with the issues that we have in 
this current budgetary environment. And I want to know how can 
the Department better address the mismatch between defense 
strategy and resources. And I want to kind of dig down on this 
a little bit.
    But Mr. Thomas outlined some suggestions, and I think what 
I will do is try to shift it to the other two panelists and ask 
you if have you a better way in mind to set defense priorities 
than the existing QDR process, beyond what Mr. Thomas has 
already outlined.
    Mr. Brimley. If I could, Madam Chairwoman, I think--and I 
think Jim and I had very similar comments. You know, one of the 
challenges is to satisfy the congressional legislation for a 
true 20-year strategic vision for the Department of Defense 
that is unconstrained in terms of the immediate budget picture. 
But at the same time, that is really only half of the question.
    I think the QDR can really, you know, with the support of 
this subcommittee and Congress, really take that other view of 
translating that unconstrained picture and translating that 
back into the near- to mid-term environment where the budget 
environment is pretty fraught. And I think part of the way you 
can do that is take the Defense Strategic Guidance that the 
President spent a lot of time with in 2011 and early 2012 and 
use that as the baseline approach. And, you know, through your 
oversight, require the Department of Defense to submit to you a 
series of alternative force structures that outline plausible 
levels of budget funding over the near- to mid-term and require 
them to assess those alternative force structures in terms of 
the overall risk that poses to the defense strategy.
    No strategy is without risks. There is no such thing as an 
unconstrained strategy. It is all about aligning ends, ways, 
and means. So if we think the budget environment is going to 
continue to be fraught, I think one way you get around that is 
you require the Department to assess along different plausible 
lines of activity and lines of funding what kinds of risk could 
we as a nation take against the defense strategy over time? And 
there will be a point where the risk is too much, that it 
requires a fundamental relook about defense strategy. I 
personally am not there. I think that the Defense Strategic 
Guidance as outlined in early 2012 is--I would guess is fairly 
sufficient in terms of articulating the overall strategic 
thrust for defense policy, i.e. the focus on Asia and the 
Middle East, for instance. But I think if you require the 
Department to take an educated view as to what levels of risk 
they could incur in different alternative force structures, 
that would go a long way I think to address for Congress and 
the Nation the kinds of defense strategy choices we might not 
have to face.
    Mrs. Roby. Dr. Dueck.
    Dr. Dueck. Thank you. Do I have this right now? Can you 
hear me?
    Mrs. Roby. I think so.
    Dr. Dueck. Okay. Yeah, the 2012 Strategic Guidance in some 
ways was a significant change from the 2010 QDR. It moved away 
from the traditional two-war standard. So that was, in a way, 
an accommodation of the fact that the budget has been cut 
already.
    Now, I actually think if you are going to ask me in the 
abstract is that a good idea, I would say no, because you are 
raising the risk that one rogue state or another is going to 
engage in more aggressive behavior because it judges the U.S. 
can only handle one crisis at a time; so, for example, North 
Korea versus Iran.
    However, having said that, if what you are looking for is 
just a more internally coherent strategic document, given where 
defense cuts are headed, I mean, it has to be said, we can't 
really sustain the two-war standard right now. So as you 
probably could tell from my opening statement, I would prefer 
to maintain the two-war standard and then fund it. But if we 
are not going to, it has to be said the 2012 Strategic Guidance 
is more internally coherent. I think it raises risks very high. 
But if the question is internal coherence, it does that.
    Now, just one good point that Mr. Brimley made in his 
statement was personnel costs. If you wanted a practical 
suggestion, it is not always the case of, as all of you well 
know, simply whether expenditures are higher or lower. I think 
that he is exactly right to say that the ballooning level of 
personnel costs would be an area to tackle. In other areas, 
though, really, the U.S. should spend more. I mentioned 
shipbuilding. So if you could redirect in that way, have an 
effect in that sense, it would help close the gap between 
capabilities and commitments.
    Mrs. Roby. Thank you.
    And we will circle back on those. But I think probably in 
light of what you have said, the dangers associated with that 
are inherent in what our future security threats look like. And 
we don't necessarily know that, although we can have that 
conversation.
    My time has expired. And in the interests of setting a good 
example, Ms. Tsongas.
    Ms. Tsongas. Thank you all for your testimony.
    We do live in a very dynamic time, as I said, both on our 
fiscal situation and sort of the resources that allows us to 
work with but also in a very changing world.
    And it was interesting, Dr. Dueck, when you talk about a 
change from being able to conduct two wars simultaneously. In 
essence, even currently, we had to divert our efforts in 
Afghanistan, kind of sort of put them on the back burner, as we 
went to Iraq because we really didn't even--didn't even have 
the resources then to fully engage in two wars at the same 
time. So to change to kind of deal with the change that that is 
dictated by more apparent fiscal constraints I think kind of 
reinforces or kind of highlights the fact that we actually 
haven't done that in recent times, haven't been able to do 
that. So I think the issue of what we have, the resources we 
have, the fiscal resources we have is very real.
    I am curious, since you all have been involved in the QDR 
process and obviously studied it very carefully, it is why you 
are here today, but if each of you could give one thing, what 
is the most important thing for the QDR to do, what that would 
be. And how would that help both the Defense Department and 
Congress as it wrestles with some very difficult decisions? And 
you can----
    Mr. Thomas. Thank you, Congresswoman Tsongas. All I would 
say is that there are really two things that really have to 
occur in tandem. One is getting the strategic diagnosis of the 
problem right. What are the core challenges? And how, and this 
is really I would underscore the word how, how are you going to 
address them? And then the second part of that, which really 
goes in tandem, is aligning the program and the efforts of the 
Department with that strategic direction.
    Dr. Dueck. Well, I would echo that. I think that is exactly 
right. The task is one of--although Mr. Thomas has pointed out 
that it is--in some ways, it is a strange process because it is 
public, I think it would be helpful to try as far as possible 
to truly align interests, threats, resources within that 
document. And as difficult as it is with a public document, 
let's not shy away from mentioning and describing intentions 
and capabilities of real world adversaries. I understand there 
are arguments against it because it is a strategic 
communication document. But, at least for our own conceptual 
clarity, it might be worthwhile to have that discussion and 
clarify it.
    Mr. Brimley. I think there are two things I would say. One, 
and I mentioned in my opening statement, you know, when budgets 
start to collapse or decline, and they will, military services 
historically have tended to sort of get into a bunker 
mentality. And so a lot of what I would call game-changing 
technologies--Jim talked long-range unmanned submersible 
vehicles and likely aerial vehicles--a lot of these 
capabilities that have been fully funded in times of plenty, 
when the budget starts to decline, they may be perceived as 
threats to other things, like manned fighter aircraft, for 
instance.
    I would encourage Congress to really pay attention to, you 
know, we have to invest in these game-changing technologies 
now. Take the Asia-Pacific, for instance. There is a lot of 
talk about how the anti-access area-denial environment in East 
Asia is rather fraught. Well, you think it is bad now, wait 12, 
15, 20 years in the future. And so we need to make sure that as 
we go through this pretty austere environment, that we focus on 
preserving our pretty substantial investments in these game-
changing technologies so we can lock in some comparative 
advantages when that environment is really going to get rather 
challenging in 10 or 12 years.
    And finally, I do think elements of the QDR should employ 
the classified realm more aggressively. I think a lot tends to 
get lost in translation. And then the QDR gets published, and 
then we turn around in the Pentagon, and we reargue first 
principles because now we are rearguing an unclassified 
document. I think it would be helpful for Congress, frankly, to 
use the classified realm to get more out of the Pentagon in 
terms of its actual strategies and scenarios and plans. But it 
also would really help the Pentagon to make sure that it has a 
document, parts of which are classified, that it can then go 
right into implementation documents that the Department does as 
part of its annual budget cycle.
    Ms. Tsongas. Thank you.
    I am almost out of time, so I will yield back.
    Mrs. Roby. Mr. Conaway.
    Mr. Conaway. Well, Madam Chairman, out of respect for my 
colleagues who have been here the whole time, I will defer to 
the end, since I just got here. Chairing the Ethics Committee, 
so I was on official business. But it is fairer for the other 
folks who have been here the whole time to go first.
    Mrs. Roby. Mr. Andrews.
    Mr. Andrews. Thank you, Madam Chair.
    Thank the witnesses for their preparation. I was looking at 
a document today that identified the security environment for 
the United States. And the document highlighted cross-border 
aggression, particularly in the Middle East and in the Korean 
Peninsula; civil wars within failed states, such as the former 
Yugoslavia and Somalia; and then what the report identified as 
transnational dangers, which they identified three in this 
order: Drug trafficking; flows of immigrants that could cause 
threats to United States citizens; and one sentence, 
increasingly violent and capable terrorists will continue to 
directly threaten the lives of United States citizens and try 
to undermine U.S. interests and alliances. This was the 1997 
QDR; one sentence devoted to the asymmetric threat of terrorism 
4 years prior to 9/11.
    What are we missing this time? Are we geared up to begin 
thinking outside the box and thinking about threats and issues 
that threaten our citizens and our country that we so--we 
didn't miss it in 1997, but I mean, one sentence out of about 
four pages on the international security environment. It is 
human nature to always be fighting the most recent war. But 
what mechanism do we have within our defense structure to think 
about what we might be missing today that would cause the 
country great peril down the road?
    Mr. Thomas. Thank you, Mr. Andrews.
    You know, every QDR is going to get it wrong as we look 
out, just given the mandate in looking out over a 20-year 
period. It is going to miss things. So I think a critical part 
has to be what sort of agility or adaptability or resilience 
are we building into our posture so that we are in a better 
position to respond to those surprises if and when they emerge? 
That said, I think there are three enduring challenges. And we 
talk about preparing for the near term versus preparing for the 
long term. I think if you think about the dangers and the 
threat posed by Al Qaeda and associated movements, if you think 
about the rise of great powers in the Middle East and Eurasia 
and elsewhere, and also the growing specter of, not only the 
proliferation of weapons of mass destruction, but their use, 
whether it is against our homeland or it is overseas, those 
challenges are with us today. And I don't see them falling off 
the table anytime in the next 20 years. And I would say those 
are three of probably the most pressing that I can imagine.
    Mr. Andrews. But I would say that to look for new problems 
doesn't mean you ignore the existing ones. Let me use this 
example that he is not with us now on the committee, but Mr. 
Bartlett in these kind of hearings occasionally would ask 
questions that would kind of furrow people's brows, and he 
would talk about electric pulse shock and things of that 
nature. And I admire him for that because he was thinking in a 
way that someone who might want to do harm to our country would 
be thinking, which is what bag of tricks do they have? What 
weapons do they have? What incentives do they have?
    And again, I am so troubled when I read the--I was here for 
the 1997 QDR, so I have my own share of blame and 
responsibility. But if you would have said to this committee in 
1997 that we would be at war in Afghanistan for a decade in the 
next decade, I think people would have probably ordered a 
saliva test for you. So what are we missing? What aren't we 
thinking about?
    Mr. Brimley. If I could, Congressman, I think you are onto 
one of the perennial challenges with these documents. You know, 
Fareed Zakaria, in 2003, wrote a book called ``The Future of 
Freedom,'' where he talked about the democratization of 
violence, essentially. We obviously saw that on 9/11, and we 
saw that, as you allude to, years before that.
    But when we think about things like 3D manufacturing, the 
ability to literally print out weapons perhaps, nanotechnology, 
proliferation of very advanced cyber tools, you know, the 
democratization of violence, the lowering entry barriers, where 
previously these technologies would be available only to 
states, now they are being increasingly pushed down farther and 
farther down. You know, Hezbollah is now using very rudimentary 
drones, for instance. It is this area that I think we should 
focus on. Partly that is why I am talking about preserving 
investments in these game-changing technologies, both to take 
advantage of them on behalf of our defense strategy but also to 
make sure that we understand what these game-changing 
technologies are, investing in them, and also investing in 
potential defenses. But that is an area where I think certainly 
the 2014 QDR should spend some time looking.
    Mr. Andrews. I thank you, and I thank the chair.
    Mrs. Roby. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Madam Chair.
    So, you know, I think this hearing is timely because of the 
impending threat of sequestration and continuing resolution 
will be devastating to our country's current National Security 
Strategy and readiness. You know, in the face of a Middle East 
that is roiled by the Arab Spring, in the face of North Korea 
and Iran continuing to pursue a nuclear program, I am concerned 
that we are balancing budgetary requirements and the mounting 
costs of our current forces with what we need to do to project 
into the future with these new threats that are emerging.
    So, you know, Mr. Thomas, I sort of looked at your 
testimony, and in your written testimony, you said that none of 
us wants a strategy that is simply budget driven, but neither 
can we responsibly craft a strategy that is unconstrained by 
resources. So, in looking at the QDR process, do you have any 
best practices? Do you have any recommendations in terms of the 
cost monitoring portion of it? For example, would you recommend 
having an individual, such as an IG [inspector general] or a 
comptroller, with a very specific expertise who would be in 
charge of looking at budgetary impacts on proposed initiatives? 
Or how do we pay for some of the new emerging technologies if 
we are going to balance the threats versus what we are capable 
of doing so that we are not wasting money on programs that are 
no longer effective or programs that are no longer relevant to 
the emerging threat, so that we can indeed pay for those 
unmanned submersibles and aircraft? And while we are 
maintaining and, you know, making sure that our forces get the 
equipment that they need? And also modernizing the existing 
force. I am a member of the National Guard. And over half of 
the Blackhawks in the National Guard are still alpha model 
Blackhawks. When are we going to upgrade those? So can you talk 
about that comptroller-IG part? Would that be something that 
would be a best practice or something that you would recommend 
as part of the QDR process?
    Mr. Thomas. I think that is an interesting idea. I mean, 
ultimately, as I was thinking about it, it is really Congress 
that has the power of the purse. And so, you know, one 
possibility might actually be closer consultation between the 
executive and legislative branches at the start of a QDR to 
think about what the fiscal outlook is. And I don't think we 
are trying to get it down to the penny, but just to have some 
idea of rough order of magnitude what should we anticipate? Is 
the slope going to be straight-lined? Is it up? Is it down? But 
what should we plan on? And I am really reminded, historically, 
in the 1930s, it was a time of severe austerity, especially for 
the U.S. Army. And you had folks who they weren't sure if they 
were going to get their next paycheck. They were really living 
on a shoestring. The senior leadership of the Army never 
questioned the resources that were provided to them by the 
Nation. They just said we will do the best we can with what we 
are given. And that is still the attitude of our U.S. military 
today.
    But I think the other element of this is that before we get 
into a lot of the meat, how we project power abroad, there is a 
lot of overhead and backroom office functions, there are a lot 
of reforms that we can make, whether it is reducing 
headquarters' staffs, it is thinking about how we better manage 
personnel costs and tailor personnel benefits that are most 
suitable for the people we have got in our service today, those 
sorts of steps we can take. And I think we can preserve a lot 
of our ability to project power overseas.
    Ms. Duckworth. Thank you, Mr. Thomas.
    Mr. Brimley, do you have similar types of best practices 
you can perhaps talk to? You know, I think about, for example, 
the increasing privatization of--well, moving a lot of military 
services to contractors. When I was in Iraq, our food was 
provided under contract at $38 per meal, three meals a day, per 
soldier. And that was in 2004.
    So, Mr. Brimley, can you talk a little bit about best 
practices and how you feel about a person that could provide 
that oversight of the budgetary aspect of the QDR?
    Mr. Brimley. I think it would be interesting to go back and 
look at--for instance, in my written statement, I say that the 
2014 QDR could be the most important since the 1993 Bottom-Up 
Review. The Bottom-Up Review was interesting because it 
basically presented three alternative force structures, with 
all the underlying implications that would be associated with 
that. It would be interesting to think about whether the 2014 
QDR could do something similar, to come up with three or more 
alternative force structures that potentially bias in certain 
strategic ways. What does an Asia-Pacific focused strategy 
really look like? And what would a force structure look there? 
Should we invest much more in the Navy? What would a force 
structure look like where we can maintain the abilities to do 
long-term stability operations in the Middle East? That would 
be an interesting exercise. And I think it would be tough. But 
if you mandated something like that and the associated cost 
implications thereof, that could be something that I think 
could be pretty useful.
    Ms. Duckworth. I am out of time.
    Thank you, Madam Chairwoman.
    Mrs. Roby. Mrs. Speier.
    Ms. Speier. Thank you, Madam Chair.
    Mr. Brimley, you just said, ``interesting exercise.'' And I 
am sitting here beginning to wonder if this whole QDR process 
is just an interesting exercise. All three of you have been 
critical on one level or another, calling it a, you know, these 
conflicting goals, being a PR [public relations] exercise. 
Supposedly, it is supposed to help us guide us in terms of the 
budget. If you were to grade how the QDRs have helped us, or 
how it has been reflected in strategy, what grade would you 
give the military and Congress?
    Mr. Andrews. Well, the military.
    Mr. Brimley. I will go first and give my panelists a chance 
to think. I mean, my first inclination would be to say, you 
know, F. But I think when you look at each individual QDR as a 
snapshot in time, and you look at all the QDRs all the way from 
the base force that Chairman Colin Powell did in 1991 and the 
Bottom-Up Review, and the four QDRs, and the next one, and the 
Defense Strategic Guidance, if you look at all of those that 
provide sort of an arc or a narrative arc of U.S. defense 
strategy, or really even U.S. grand strategy over the entire 
post-Cold War period, I think we have done a pretty good job as 
a nation, as a Department, as a congressional branch, grappling 
with the question of what is the role of the United States in 
the post-Cold War world? What is the role of the United States 
in the post-9/11 world? So I wouldn't say I am bullish on QDRs, 
but I think they are useful exercises because it is a really 
good forcing mechanism for the Secretary of Defense, but also 
for Congress to really engage on these issues.
    Ms. Speier. All right. Dr. Dueck.
    Dr. Dueck. I think I am known as a relatively easy grader, 
maybe a gentleman's C or something like that for the grade.
    Ms. Speier. All right.
    Dr. Dueck. I mean, I think the United States, in terms of 
its overall ability to adjust, in spite of initial hiccups and 
failures, has been much more impressive than the QDR process 
itself. Put it that way.
    Ms. Speier. Mr. Thomas.
    Mr. Thomas. I would just say that, just picking up on 
Shawn's comment earlier, I mean, there has been an awful lot of 
consistency across the last four Quadrennial Defense Reviews in 
terms of the challenges that they have highlighted and the 
steps that need to be taken. I think where they all have fallen 
down is the lack of alignment, their inability to align the 
program. It is not going to happen overnight, but we are still 
running on the force structure and the program that was 
essentially laid out in the 1993 Bottom-Up Review. We really 
haven't moved beyond that. We talk a good game about changing 
the force planning construct, getting beyond the two major 
theater war construct, but we still aren't there. And I think 
we have a long way to go.
    The last point I would just say, ma'am, is I think there is 
a danger that the QDRs have just gotten too big. It has gone 
from being an innovative practice to being institutionalized, 
where you have a bureaucracy that is working this. Tons of 
contractors, lots of folks, each service has its own QDR office 
that is already established. It just gets to a point where I 
think it has gone too far. And I think simplifying that process 
and getting it down to where it is not all things to all people 
would be a step in the right direction.
    Ms. Speier. All right. Maybe we need a separate hearing in 
which you can come back and suggest to us how it should be 
reconstructed. I have a question on energy costs that are 
eating the Defense Department up. But I think you, Mr. Brimley, 
actually referred to it in your testimony. For every 25-cent 
increase in the price of a gallon of oil it costs the 
Department of Defense a billion dollars. That is staggering. 
And the idea that somehow we are not going to engage in 
alternative energy would be deeply troubling to me. Do you have 
any comments that you would make on that in terms of strategy?
    Mr. Brimley. I would say one thing, Congresswoman. It is 
regarding overseas posture. One of the things I did when I was 
at the Pentagon was I was a member of the team that convinced 
Secretary Gates to make investments in forward architecture in 
Southeast Asia in places like Darwin, Australia, or pushing 
forward the deployment of littoral combat ships to Singapore. I 
think there is a key strategic need for us to remain engaged 
overseas. But part of it is a cost issue. I think if you look 
at in the very near term, yes, it costs money. But if you look 
at our forward presence over the long term, say 15 to 20 years, 
you know, the ability to forward station in particular naval 
assets in Asia I think is a very real cost saver over the long 
term, because you are not paying for the fuel to go back and 
forth, back and forth across the Pacific for 20 years. I think 
there is real cost savings associated with overseas basing and 
forward posture. And I know that is not a popular issue on the 
Hill, but I think it is one we should look at.
    Mrs. Roby. Mr. Conaway.
    Mr. Conaway. Well, thank you, Madam Chairman. It is some 
interesting comments. Kind of playing off of some of the things 
that have already been said, the role of the national strategy, 
which was developed by the White House and, in 2011, just kind 
of rolled out there, I have been in the process during that 
time frame, and I didn't see a lot of transparency, a lot of 
discussion as to why we made that change or what was the 
analysis done. What would be the role of the QDR at creating 
the National Security Strategy? It is a chicken or egg kind of 
thing, I guess. But should as a part of this QDR process say 
that that National Security Strategy is valid and we ought to 
plan against that? Or where is the interplay between the two? 
And you got one group working for the White House who kicked it 
out. And I understand the tension there. But where in the 
system does the White House get graded on changes to the 
National Security Strategy?
    Mr. Thomas. Well, just, sir, I think normally Quadrennial 
Defense Reviews don't take on the issue of evaluating the 
National Security Strategy. And perhaps they should. And I 
think you are raising an interesting point. The other thing is 
that a lot of Quadrennial Defense Reviews have ended up rolling 
out a year or so before the National Security Strategy comes 
out. So there is kind of a disconnect in terms of the 
sequencing of events; that normally it is the top-level 
strategy that drives the defense strategy and so forth.
    The other thing I would say that is really missing is we 
have a Quadrennial Defense Review, the State Department now has 
its own Quadrennial Diplomatic and Development Review that it 
does, and other departments are doing this as well. But it 
seems to me there is a crying need for some sort of a national 
security review that occurs across departments. And I think one 
of the goals should be to take on this issue of informing or 
crafting what a National Security Strategy should be at the 
grand strategy level.
    Mr. Conaway. Kind of playing off what Ms. Speier talked 
about, we brag on the 1993 QDR. Can you give us an example of 
how 2011 and 10 or 11 years in Afghanistan and a big fight in 
Iraq, what happened out of the 1993 QDR that made us better 
prepared and more nimble?
    Mr. Dueck, you made the comment that made the most sense, 
and that is we are incredibly adaptive. And we will take, if 
you watch our military, we will take folks who are trained to 
do a lot of things and ask them to do totally out-of-their-lane 
things, and they get it done. So what happened out of the 1993 
QDR that helped us in this decade that we ought to brag on?
    Dr. Dueck. Well, I think Mr. Brimley was right initially 
when he said that that in some ways was probably the most 
impressive, over the years, of the QDRs. It necessarily adapted 
to a post-Cold War world. So there was a pressure of necessity.
    And but, you know, over the years, the trend has been this 
gap between capabilities and commitments. One point I would 
just make, going back to an earlier comment, was that it is 
true, as Mr. Andrews said, that we never can predict exactly 
what the future will hold, which in a way is an argument for 
simply being very strong. I mean, you can make the case to say 
there is a risk that if we try to get too far ahead, that we 
could give up on existing capabilities. For example, if we now 
plan on the premise that we won't face anything like Iraq or 
Afghanistan, and it is safe to say we won't, I mean, the 
historical pattern has been since the 1940s we never get it 
right in terms of predicting what the next conflict is going to 
be. So, in a sense, it is not simply a matter of predicting 
some very futuristic wave; it is actually a sense of being 
strong across the board.
    Mr. Conaway. I guess the point would be that the reason 
that our team is so good at doing whatever it is we ask them to 
do, and many times it is nothing they have been trained to do, 
is it is about personnel. So as we try to deal with that 
tension between the costs of personnel, which are huge, and a 
big deal, versus the capacity to do other kinds of things, you 
know, we have never been really good at making those--you know, 
I hate to use the word hollow out the force, but it has been 
used an awful lot. We have not seemed to be able to learn our 
lessons and protecting that American mind-set that wears our 
uniforms that gets things done no matter what the odds, no 
matter what the resources available. Whether it is in the 1930s 
when they just took what they got or the folks who have been in 
this fight for 12 years now. You know, undervaluing that I 
think is probably the biggest danger to the system, and not 
being able to have folks in place who can adapt, who can take a 
tool that is used for one thing and use it for something else.
    Madam Chairman, I yield back.
    Mrs. Roby. Thank you.
    And I have a few more questions, and Ms. Speier has a few 
more questions. So we are just going to--and then, Mr. Conaway, 
if you have any follow-up. We are just going to plow through 
this. I know we are expecting votes soon. But then we will be 
able to wrap it up.
    And I want to also echo the sentiments, as I said in my 
previous questions, that what our enemies look like in the 
future and what Mr. Andrews makes an excellent point in being 
prepared for that.
    And I hear, Dr. Dueck, what you are saying as well.
    But I really think in light of this balance between, you 
know, unconstrained by resources, but the budgetary 
constraints, we have got to be realistic in making sure that we 
are prepared. And I think this is an opportunity to do that. 
And so I hope that we will take into consideration our evolving 
relationships with places like India and China and Iran, but 
also those that may be unanticipated in other parts of the 
world as well.
    We talked about the grade for QDR, not Congress. If it is 
an F, and we have an opportunity right now to improve upon it, 
I want to spend a little bit of time and hear your comments, 
because it hasn't come up yet, about the role that the 
independent panel is going to play in this QDR as opposed to 
the previous. By having them involved, a smaller panel involved 
ongoing throughout the process, as opposed to them reviewing it 
at the end and telling us this document is worthless and 
doesn't mean anything. So maybe they didn't say it like that, 
but essentially that is what they told us. So how is this, the 
independent panel's involvement throughout going to improve? 
Because a lot of the suggestions that have been made, and these 
are very valid questions about the process, may be too late for 
the 2014. This is an opportunity to improve upon the final 
document. So if you could just explain to us about that.
    Mr. Brimley. If I could, I spent some time in my written 
testimony looking at this. I mean, I was in the Pentagon when 
the first independent panel started up, and I thought it was 
very useful, but it was handicapped in a sense because it 
started when--we were probably 75 percent of the way done, and 
then it was really this dynamic of them grading the homework, 
which I think was a useful thing to do, but I think, as you 
allude to, Madam Chairwoman, you know, standing up the 
independent panel now and giving them the documents they need 
to succeed, to include, I think, a lot of classified material, 
maybe secure space at the Pentagon with some administrative 
support, with a support staff that maybe is part-time, maybe 
some full-time that have, you know, full clearances that have--
you know, that have a background in this stuff could be 
extremely useful.
    I remember when we were doing the 2010 QDR, we had internal 
red teams, and we brought in external folks from the think tank 
community, so there was a lot--there was a willingness, I 
think, on the part of the Pentagon, the folks crafting the QDR 
to really use these sorts of mechanisms. And I think you are 
right, if you stand up the independent panel now, staff it the 
right way, select panelists who have a background and interest 
in this stuff, I think it could be a very, very powerful 
mechanism to track all the way through.
    The final thing I would say is to structure in, you know, 
on and off ramps throughout the process where the panelists 
come back and brief this committee and others but also brief 
the Secretary of Defense. I think this could be a useful 
process, not just for Congress but also for the Secretary of 
Defense and the executive branch.
    Mrs. Roby. Absolutely.
    Does anybody want to add anything?
    Okay. I will forego the rest of my time.
    Ms. Tsongas, you had a couple of follow-up questions, and 
then we will go to Ms. Speier.
    Ms. Tsongas. Not so much a question but just this hearing 
really is our opportunity to sort of revisit and visit the QDR 
process as we are poised for this next round, and as I said in 
my opening comments, if we got it right at the first--if we got 
it out of the gate, we would do ourselves out of a job. And I 
do know that we've revisited this QDR process over time and 
that now having the independent panel do its work in concert 
with the QDR rather than being a follow-on to sort of revisit 
and assess, I think, is an important reform, and we will see 
how it works. Thank you.
    Mrs. Roby. Mrs. Speier.
    Ms. Speier. Thank you, Madam Chair.
    Mr. Brimley, you referred to wasting assets, and you know, 
some would argue that aircraft carriers and stealth technology 
are examples of assets that have limited comparative advantage. 
Are you--could you point to any other wasting assets that we 
should be looking at?
    Mr. Brimley. I think that term is generally--I should cite 
that, Jim's boss, Andy Krepinevich, wrote a great article in 
Foreign Affairs that talked about wasting assets, so, in some 
ways, this is really a question for Jim. But I think, yes, you 
named a couple of capabilities that I think stealth, even 
aircraft carriers, if you want aircraft carriers to be 
survivable in the future, you really need to make investments 
now in increasing the range of the carrier air wing. I think 
that is a huge issue, so that is one aspect.
    I think investing in aviation capabilities that can help 
America project and sustain power over much longer ranges than 
we have in the past is really--is really what I was trying to 
get at when I used that term. You know, the massive amount of 
money we are spending procuring thousands of relatively short-
range type of flyer aircraft does not really align, in my view, 
to the future of security environment we are going to see in 
places like the Middle East or the Asia-Pacific.
    Ms. Speier. Comments by Mr. Thomas.
    Mr. Thomas. To echo Shawn a little bit, I mean, especially 
when it comes to the aircraft carrier, the Nation has made an 
incredible investment in carrier aviation over many decades, 
but we see today that the challenges we face in areas like the 
Western Pacific and even the Persian Gulf where countries with 
anti-ship ballistic missile technologies and anti-ship cruise 
missiles as well as mine and torpedo threats using their 
submarine forces, they are going to end up pushing our forces--
our naval forces out, and they are going to have to operate 
from greater ranges.
    So, figuring out how we extend the life of the aircraft--
extend the range of the aircraft that fly off the decks of the 
carriers is absolutely critical to getting every penny of value 
out of the aircraft carriers that are in the fleet today and 
that we are going to have in the future.
    Ms. Speier. Thank you all.
    Mrs. Roby. Well, I just want to thank you, Mr. Brimley and 
Dr. Dueck, and Mr. Thomas. We really value what--the 
information that you brought us today and all of the 
information contained in your testimony, and I just want to 
say, as we really enter into this process and think about the 
things that we talked about today and, you know, God willing, 
improve upon this process so we have an end product that is 
going to be useful in these outyears and really not focusing so 
much on the now, which we got caught up in a little too much in 
the last, but really, really taking this opportunity to prepare 
for 20 years from now.
    So thank you again for your time and your testimony, and to 
the members of the committee.
    And with that, we are adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 26, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9948.001
    
    [GRAPHIC] [TIFF OMITTED] T9948.002
    
    [GRAPHIC] [TIFF OMITTED] T9948.036
    
    [GRAPHIC] [TIFF OMITTED] T9948.037
    
    [GRAPHIC] [TIFF OMITTED] T9948.003
    
    [GRAPHIC] [TIFF OMITTED] T9948.004
    
    [GRAPHIC] [TIFF OMITTED] T9948.005
    
    [GRAPHIC] [TIFF OMITTED] T9948.006
    
    [GRAPHIC] [TIFF OMITTED] T9948.007
    
    [GRAPHIC] [TIFF OMITTED] T9948.008
    
    [GRAPHIC] [TIFF OMITTED] T9948.009
    
    [GRAPHIC] [TIFF OMITTED] T9948.010
    
    [GRAPHIC] [TIFF OMITTED] T9948.011
    
    [GRAPHIC] [TIFF OMITTED] T9948.012
    
    [GRAPHIC] [TIFF OMITTED] T9948.013
    
    [GRAPHIC] [TIFF OMITTED] T9948.014
    
    [GRAPHIC] [TIFF OMITTED] T9948.015
    
    [GRAPHIC] [TIFF OMITTED] T9948.016
    
    [GRAPHIC] [TIFF OMITTED] T9948.017
    
    [GRAPHIC] [TIFF OMITTED] T9948.018
    
    [GRAPHIC] [TIFF OMITTED] T9948.019
    
    [GRAPHIC] [TIFF OMITTED] T9948.020
    
    [GRAPHIC] [TIFF OMITTED] T9948.021
    
    [GRAPHIC] [TIFF OMITTED] T9948.022
    
    [GRAPHIC] [TIFF OMITTED] T9948.023
    
    [GRAPHIC] [TIFF OMITTED] T9948.024
    
    [GRAPHIC] [TIFF OMITTED] T9948.025
    
    [GRAPHIC] [TIFF OMITTED] T9948.026
    
    [GRAPHIC] [TIFF OMITTED] T9948.027
    
    [GRAPHIC] [TIFF OMITTED] T9948.028
    
    [GRAPHIC] [TIFF OMITTED] T9948.029
    
    [GRAPHIC] [TIFF OMITTED] T9948.030
    
    [GRAPHIC] [TIFF OMITTED] T9948.031
    
    [GRAPHIC] [TIFF OMITTED] T9948.032
    
    [GRAPHIC] [TIFF OMITTED] T9948.033
    
    [GRAPHIC] [TIFF OMITTED] T9948.034
    
    [GRAPHIC] [TIFF OMITTED] T9948.035
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. Mr. Thomas mentioned the Red Team as playing an 
important role in the 2006 QDR, and participated in the 2010 external 
Red Team. Do you think an external Red Team should be part of the 
process for the 2014 QDR, and do you have any sense as to whether one 
will be in place?
    Mr. Brimley. Given the scale of the challenges facing the 
Department and Congress in working through the current fiscal 
environment to make smart, prudent, and pragmatic defense choices, it 
is right and proper to leverage a Red Team process to help those 
working the QDR produce the best possible product. It will be important 
for any red team effort to not attempt to develop an alternative QDR or 
to get in the way of the QDR Independent Panel. I would suggest that 
Congress request that the Secretary of Defense establish a QDR Red Team 
that shall be exposed to the initial QDR conclusions in the July/August 
2014 timeframe, with the goal of reporting to the Secretary of Defense 
no later than October 31 2013, in order to ensure that the conclusions 
of the team are received in time to be influential to the end-game of 
the formal QDR process. This timing also ensures that the red team will 
not get in the way of the assessment of the QDR Independent Panel, 
which will report after the QDR is released in February 2014. I do not 
believe a formal QDR Red Team has yet been established by the Secretary 
of Defense.
    Ms. Speier. Mr. Brimley, I'm very concerned with personnel and 
healthcare costs at the Department of Defense, and was struck by your 
comment that the QDR must also look at these costs. Most of the 
concerns we've heard about the QDR is that it's not sufficiently 
engaged in strategic thinking, why do you argue that the QDR is the 
right forum to develop a strategy for addressing these costs?
    Mr. Brimley. It may well be the case that the QDR is not the right 
forum to develop a strategy for addressing the spiraling cost of 
personnel and healthcare costs, but I am concerned that it is possible 
that no other forum currently exists that is structurally important 
enough to signal real change. I believe that the essence of strategic 
planning is understanding where you are, where you are likely to go 
given current trends, and making informed choices about how to navigate 
into the future. If the QDR process does not include any references to, 
or assumptions about, the projected costs of military personnel and 
healthcare than any discussion about levels of investment with respect 
to military capabilities would be fundamentally ignorant and nearly 
useless for the Secretary of Defense and for Congress. So whether it is 
the QDR, the current Strategic Choices and Management Review, or some 
other high-level forum, it is critical that the underlying cost drivers 
for the Department of Defense be fully exposed to scrutiny in order to 
have a meaningful conversation about the sustainability of U.S. defense 
strategy.
    Ms. Speier. Mr. Thomas mentioned the Red Team as playing an 
important role in the 2006 QDR, and participated in the 2010 external 
Red Team. Do you think an external Red Team should be part of the 
process for the 2014 QDR, and do you have any sense as to whether one 
will be in place?
    Dr. Dueck. I do think a ``red team'' should be part of the process 
for the 2014 QDR. Such an independent assessment from the outside helps 
to test the assumptions behind the QDR and in the end makes them 
stronger. In 2010, for example, there was an Independent Panel for the 
QDR that year, a genuinely bipartisan panel, that made good 
recommendations across a range of areas and actually anticipated 
certain policies such as the administration's strategic pivot to Asia. 
Congress has mandated that a similar independent panel, the National 
Defense Panel, provide independent assessment of the upcoming QDR 2014, 
and a number of excellent appointments have already been made to that 
panel by members from both parties. I believe the National Defense 
Panel will play an indispensable role in the 2014 QDR process.
    Ms. Speier. Mr. Thomas mentioned the Red Team as playing an 
important role in the 2006 QDR, and participated in the 2010 external 
Red Team. Do you think an external Red Team should be part of the 
process for the 2014 QDR, and do you have any sense as to whether one 
will be in place?
    Mr. Thomas. Yes, I believe that a Red Team should [be] part of the 
2014 QDR. It should be composed of a group of distinguished civilians 
and retired senior military officers with reputations for challenging 
the status quo. They should be unencumbered from normal bureaucratic 
concerns. However, the aim should NOT be to create a bi-partisan group 
like the National Defense Panel that offers its own independent 
assessment of the security environment and the strategy. Rather, the 
Red Team should be to bring together a group of apolitical strategy and 
force planning experts (thus avoiding the typical bipartisan commission 
result of ``splitting the difference,'' that removes any sharp edges 
from their recommendations and is more likely to maintain the status 
quo) to advise and assist the Secretary of Defense.
    The Red Team's mandate should be to consider how best to align the 
defense program with the Secretary of Defense's strategic guidance. The 
Red Team should make its recommendations directly to the Secretary of 
Defense, free from requirements to coordinate or staff their findings. 
To maximize its effectiveness, the chairman and executive director of 
the Red Team should be granted accesses to all Department Special 
Access Programs. The Red Team's findings should be classified.
    I am not aware that the Secretary of Defense has made any decision 
to establish a Red Team for the upcoming QDR.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
